APPENDIX B

Case: 17-50432, 05/04/2020, ID: 11679190, DktEntry: 56, Page 1 of 1

FILED
MAY 4 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

17-50432

D.C. No. 3:15-cr-03175-JM-1
Southern District of California,
San Diego

DAVID ENRIQUE MEZA,
ORDER
Defendant-Appellant.

Before: N.R. SMITH and WATFORD, Circuit Judges, and KORMAN,* District
Judge.
The panel has voted to deny the petition for panel rehearing. Judge Watford
has voted to deny the petition for panel rehearing en banc, and Judge Smith and
Judge Korman have so recommended.
The full court was advised of the petition for rehearing en banc and no judge
has requested a vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

*

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.

